USAID
OFFICE OF INSPECTOR GENERAL

 Audit of USAID/South Africa's Cashier Operations



Audit Report (Report No. 4-674-01-003-F)
April 25, 2001




                       PRETORIA, SOUTH AFRICA
                    OFFICE OF INSPECTOR GENERAL
             U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT
        U.S AGENCY FOR
        INTERNATIONAL
        DEVELOPMENT

        RIG/PRETORIA

        APRIL 25, 2001


     MEMORANDUM


     FOR:         Director USAID/South Africa, William S. Rhodes

     FROM:        Regional Inspector General/Pretoria, Joseph Farinella

     SUBJECT: Audit of USAID/South Africa's Cashier Operations, Audit Report No. 4-674-01-003-F

This memorandum is our report on the subject audit. We have received your comments on the draft
report and have included them in their entirety as an appendix to this report (see Appendix II). This report
contains no recommendations for your action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                     1
Summary of          To accomplish our audit objective; we (1) reviewed the physical security of the
Results             cashier’s office and the transport procedure of cash and checks, (2) evaluated
                    controls relating to safeguarding cash and other valuables in the cashiers’ safes,
                    (3) performed a surprise cash count, (4) audited the cashier’s reconciliation of
                    the imprest fund, and (5) reviewed daily cash transactions.

                    Our results showed that the Mission was following regulations in its cashier
                    operations. The cash counts were accurate and transactions were accurately
                    recorded.




Background           The Controller is responsible for all financial activities of the cashiering
                     operations at USAID South Africa. The Deputy Controller directly supervises
                     the cashier and issues instructions for day-to-day operations, while the
                     Controller approves exceptional transactions arising from unusual situations.
                     Cash transactions are handled by a cashier and, in her absence, an alternate
                     cashier. The cashier’s duties are principally comprised of:
                     (i)     maintaining an imprest fund in local currency;
                     (ii)    making cash disbursements against properly authorized documents;
                     (iii)   conducting accommodation exchange transactions principally for U.S.
                             citizens working for the Mission and institutional contractors; and
                     (iv)    accepting payments on behalf of the U.S. Government (bills for
                             collection, etc.) and depositing the funds collected.

                     The Mission’s authorized imprest fund level at the time of the audit was a base
                     of $90,000 with a temporary advance of $20,000 issued in February 2000, for a
                     total of $110,000.




Audit Objective As part of RIG/Pretoria’s 2000 Annual Audit Plan, this audit involved a review
                    of USAID/South Africa’s Cashier Operations and was designed to answer the
                    following question:

                      Are Cashier Operations being managed efficiently and effectively in
                      accordance with USAID policies and procedures?




                                                 2
                 Appendix I provides a complete discussion of the scope and methodology for
                 this audit.



Audit Findings   Are Cashier Operations being managed efficiently and effectively in
                 accordance with USAID policies and procedures?

                 USAID/South Africa managed its cashiering operations efficiently and
                 effectively in accordance with USAID policies and procedures.

                 USAID/South Africa management provided guidance to its cashiers by the
                 policies and procedures established by the Treasury Cashier’s Manual, Regional
                 Administrative Management Center (RAMC)/Paris Operations Manual and
                 USAID Financial Management Bulletin No. 10.

                 In accordance with the above guidance, the Mission designated a cashier and
                 an alternate cashier with a sub-cashier at another location, all of whom
                 received training at the RAMC in Paris. The cashier’s office is situated in a
                 segregated area on the eighth floor of the USAID building and access is
                 restricted to authorized personnel. All cash, checks and other valuables are
                 kept in safes, one for each cashier, the combinations to which are placed in a
                 sealed envelope in the custody of the Embassy’s Regional Security Officer.

                 Moreover, the Mission takes precautions in transporting money and other
                 valuables between the bank and the cashier’s office. The cashier makes an
                 appointment with the bank for the next day when depositing and cashing checks.
                 She is accompanied by one of the Mission security guards to and from the office
                 and bank.

                 A surprise count of the cash on hand on February 13, 2001 showed that all
                 transactions were accounted for and local currency was counted and reconciled to
                 the Mission’s imprest fund level of $110,000. This balance included a temporary
                 advance of $20,000 for accommodation exchange transactions that should have
                 been returned to RAMC/Paris in August 2000. According to the Controller, this
                 had not occurred because of an administrative oversight, and the office is in the
                 process of returning that amount. Since this is not a systemic problem, we are not
                 making a recommendation.

                 A review of the cashier transactions from January 22 to February 13, 2001,
                 showed that the disbursements were properly supported and the imprest fund was
                 periodically reconciled by the cashier. Signed documentation was obtained for
                 all payments, and requests for reimbursements were submitted with acceptable
                 documentation.




                                             3
                 Furthermore, we noted that the Deputy Controller conducts surprise cash counts
                 periodically and spot checks the cashier’s records for accuracy and compliance
                 with USAID requirements.



Management       USAID/South Africa had no comments on the draft audit report. In its
Comments and     response, USAID/South Africa advised us that they have acted to reduce the
Our Evaluation   cashier’s limit by $20,000. This was done through the Automated Cashier
                 System to limit the cashier’s ability to request replenishments that would
                 exceed the authorized level of $90,000. The level will be reduced with the
                 next replenishment request.




                                             4
                                                                             Appendix I


Scope and     Scope
Methodology
              As a part of the FY 2000 audit plan, we conducted an audit of USAID/South
              Africa’s cashiering operations in accordance with generally accepted
              government auditing standards. The fieldwork was done at the Mission
              facilities in Pretoria and Silverton, South Africa.

              To accomplish our audit objective, we (1) reviewed the physical security of the
              cashier’s office, (2) evaluated controls relating to safeguarding cash and other
              valuables in the cashier’s rooms, (3) performed a surprise cash count, (4)
              verified the cashier’s reconciliation of the imprest fund level of $110,000 and
              (5) reviewed 100 percent of the transactions for the period January 22 to
              February 13, 2001, valued at $61,693.

              Because of the limited scope of our audit, we did not establish a materiality
              threshold and considered even one dollar out of balance as a reportable
              condition. The universe did not lend itself to random, statistical sampling.
              Therefore, we chose the transactions related to the Controller’s last surprise
              cash count and the audit surprise cash count.

              Methodology

              The objective of this audit was to determine whether cashier operations are
              managed efficiently and effectively in accordance with USAID policies and
              procedures.

              To accomplish this audit objective, we conducted interviews with officials at
              USAID/South Africa, principally in the Controllers Office, to gain an
              understanding of the Mission’s existing procedures and controls covering each
              of the cashier’s processes; maintaining an imprest fund in local currency;
              making cash disbursements against properly authorized documents; conducting
              accommodation exchange transactions principally for U.S. citizens working for
              the Mission and institutional contractors; and accepting payments on behalf of
              the U.S. Government (bills for collection, etc.) and depositing the funds collected.

              Our review also included tests of judgmentally selected transactions. We
              traced data to appropriate supporting records to verify whether the data was
              authorized, accurately stated and adequately supported. A description of the
              specific areas tested under each accounting process is summarized below.




                                           5
Cash on Hand: We conducted a non-scheduled cash count with the cashier,
alternate cashier and a sub-cashier at one of the warehouses. We counted the
cash held by each accountable person to verify that it was accurate and tied to
the amounts on the system generated report, Cashier’s Reconciliation
Statement, for the date reviewed.

Payments: Our tests included verifying that the supporting documents were
accurate, sufficient and administratively approved by the certifying officer.
We verified each transaction for the cash count.

Accommodation exchange: We verified that the exchange rates used were
approved and that transactions were within regulation limits of $500 or
appropriately authorized per Bulletin No. 10, Section VII, B.

Cash and document security: We verified that physical access to cash and
documentation was limited.




                            6
                                                                                                            Appendix II


Management
Comment                           UNITED STATES GOVERNMENT
                                        MEMORANDUM




    DATE:            April 18, 2001

    TO:              Joseph Farinella - Regional Inspector General

    FROM:            William Stacy Rhodes - Mission Director

    SUBJECT:         Audit of USAID South Africa's Cashier Operations, Audit Report No. 4-674-01-XXX-F.

    Action has been taken through the Automated Cashier System (ACS) to limit the cashier's ability to request
    replenishments, which would exceed the authorized level of $90,000. This will take effect immediately, so the actual
    cash level will go down as the next replenishment requests take place.




                                                               7
